No. ______
In the

Supreme Court of the United States
__________________
SERGIO MEJIA-DUARTE,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

__________________

PETITION FOR WRIT OF CERTIORARI
__________________
MAURICIO LOPEZ-ALDAZABAL
Counsel of Record
2655 LeJeune Road
Suite 700
Coral Gables, FL 33134
305-569-9566
mlafedesq@msn.com
Counsel for Petitioner

September 20, 2019
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED FOR REVIEW
I. WHETHER A CRUCIAL MANDATE OF THE
INTERNATIONAL EXTRADITION TREATY
BETWEEN THE UNITED STATES AND
HONDURAS WAS VIOLATED WHEN THE
PROSECUTION AT TRIAL PRESENTED
EVIDENCE AGAINST THE DEFENDANT OF
ACTS WHICH OCCURRED BEFORE THE DATE
ALLOWED BY THE LANGUAGE OF THE
TREATY.
II. WHETHER PETITIONER’S RIGHTS TO DUE
PROCESS AND A FAIR TRIAL WERE VIOLATED
WHEN THE TRIAL COURT ALLOWED THE
ADMISSION OF HEARSAY EVIDENCE
SUGGESTING THAT THE DEFENDANT WAS
INVOLVED IN AN UNRELATED MURDER OF
WHICH HE HAD NO PARTICIPATION IN
VIOLATION OF FRE 403 AND FRE 404(B).

ii
PARTIES TO THE PROCEEDING
PETITIONER SERGIO NEFTALI MEJIA-DUARTE
WAS THE DEFENDANT IN THE DISTRICT COURT
PROCEEDINGS AND APPELLANT IN THE COURT
OF APPEALS PROCEEDINGS. RESPONDENTS
UNITED STATES OF AMERICA WAS THE
PLAINTIFF IN THE DISTRICT COURT
PROCEEDINGS AND APPELLEES IN THE COURT
OF APPEALS PROCEEDINGS.
CORPORATE DISCLOSURE STATEMENT
There are no corporations that are a party to the
present criminal case.
PROCEEDINGS IN FEDERAL COURTS
! United States of America v. Sergio Neftali MejiaDuarte, No. 15-20540-CR-KMM, United States
District Court for the Southern District of Florida
! Sergio Neftali Mejia-Durate v. United States of
America, No. 18-12196, United States Court of
Appeals for the Eleventh Circuit

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED FOR REVIEW . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . . ii
PROCEEDINGS IN FEDERAL COURTS . . . . . . . . ii
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . v
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS INVOLVED . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . 2
A. Course of Proceedings and Disposition in the
District Court and the Court of Appeals . . . . 2
B. Statement of the Facts . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . 6
I. THE COURT OF APPEALS CLEARLY ERRED
IN FINDING THAT THE DISTRICT COURT
PROPERLY ALLOWED THE PROSECUTION,
AT TRIAL, TO PRESENT EVIDENCE OF THE
PETITIONER’S ALLEGED CONSPIRATORIAL
ACTIVITIES BEFORE FEBRUARY 27, 2012 IN
VIOLATION OF THE EXTRADITION TREATY
BETWEEN THE UNITED STATES AND THE
REPUBLIC OF HONDURAS. . . . . . . . . . . . . . . . 6

iv
II. THE APPELLATE COURT’S OPINION THAT
THE DISTRICT COURT PROPERLY
ALLOWED TESTIMONY ABOUT A MURDER
THAT WAS COMPLETELY UNRELATED TO
THE PETITIONER WAS ERROR . . . . . . . . . . . 13
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
APPENDIX
Appendix A Opinion in the United States Court of
Appeals for the Eleventh Circuit
(July 02, 2019). . . . . . . . . . . . . . . . App. 1
Appendix B Judgment in a Criminal Case in the
United States District Court for the
Southern District of Florida Miami
Division
(May 23, 2018). . . . . . . . . . . . . . . App. 17

v
TABLE OF AUTHORITIES
CASES
Factor v. Laubenheimer,
290 U.S. 276, 54 S.Ct. 191 . . . . . . . . . . . . . . . . . 11
Johnson v. Browne,
205 U.S. 309, 27 S.Ct. 539,
51 L.Ed. 816 (1907) . . . . . . . . . . . . . . . . . . . . . . . 12
Old Chief v. United States,
519 U.S. 172, 117 S.Ct. 644,
136 L.Ed. 2d 574 (1997) . . . . . . . . . . . . . . . . . . . 15
Shapiro v. Ferrandina,
478 F.2d 894 (2d Cir. 1973) . . . . . . . . . . . . . . . . 12
United States v. Hands,
184 F.3d 1322 (11th Cir. 1999). . . . . . . . . . . . . . 15
United States v. Marshall,
173 F.3d 1312 (11th Cir. 1999). . . . . . . . . . . . . . 15
United States v. Miranda,
425 F.3d 953 (11th Cir. 2005). . . . . . . . . . . . . . . . 9
United States v. Rauscher,
119 U.S. 407, 7 S.Ct. 234, 30 L.Ed 425 (1886). . 11
United States v. Rivera,
775 F.2d 1559 (11th Cir. 1985). . . . . . . . . . . . . . 10
United States v. Sosa,
777 F.3d 1279 (11th Cir. 2015). . . . . . . . . . . . . . . 9
United States v. Toler,
144 F.3d 1423 (11th Cir. 1998). . . . . . . . . . . . . . . 9

vi
United States v. Vernon,
723 F.3d 1254 (11th Cir. 2013). . . . . . . . . . . 98, 10
Valentine v. United States, ex rel. Neidecker,
299 U.S. 5, 57 S.Ct. 100 . . . . . . . . . . . . . . . . . . . 11
CONSTITUTION AND STATUTES
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . 1, 2
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . 2
21 U.S.C. § 963 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RULES
Fed. R. Evid. 403 . . . . . . . . . . . . . . . . . . . 8, 12, 13, 15
Fed. R. Evid. 404(b) . . . . . . . . . . . . . . . . . . . . . passim

1
OPINIONS BELOW
United States Court of Appeals For the Eleventh
Circuit United States of America v. Sergio Neftali
Mejia-Duarte, No. 18-12196 (11th Cir. July 2, 2019).
Judgment entered on July 2, 2019.
STATEMENT OF JURISDICTION
On July 2, 2019, the United States Court of Appeals
for the Eleventh Circuit issued its decision in United
States of America v. Sergio Neftali Mejia-Duarte, No.
18-12196 (11th Cir., July 2, 2019), (Appendix A).
The statutory provision which confers on this Court
jurisdiction to review the above-described decision of
the Court of Appeals for the Eleventh Circuit by Writ
of Certiorari is Section 1254(1) of Title 28, United
States Code.
CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. amend. V
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a
presentment or indictment of a grand jury,
except in cases arising in the land or naval
forces, or in the militia, when in actual service in
time of war or public danger; nor shall any
person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness
against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall

2
private property be taken for public use, without
just compensation.
U.S. Const. amend. VI
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by
an impartial jury of the state and district
wherein the crime shall have been committed,
which district shall have been previously
ascertained by law, and to be informed of the
nature and cause of the accusation; to be
confronted with the witnesses against him; to
have compulsory process for obtaining witnesses
in his favor, and to have the assistance of
counsel for his defense.
STATEMENT OF THE CASE
A. Course of Proceedings and Disposition in
the District Court and the Court of Appeals
Petitioner, Sergio Mejia-Duarte, was a defendant in
the trial court and respondent, United States of
America, was the prosecution. Record references will
be made by referring to the document number and page
number with the document, as reflected in the docket
sheet.
Petitioner, Sergio Mejia-Duarte was indicted in the
Southern District of Florida in a one defendant (Mejia),
one count indictment with conspiracy to distribute a
controlled substance, five or more kilograms of a
mixture and substance containing cocaine in violation
of Title 21, United States Code, Section 963.

3
The Petitioner is and has always been a citizen of
Honduras and had never been to the United States.
The Petitioner was arrested in Honduras and was
extradited from Honduras pursuant to a treaty
between the two countries (hereinafter the “Treaty”).
It is agreed by the prosecution (and verified by the
appellate court), that the Treaty required that the
United States would only try or punish the defendant
“for events that have taken place after the amendments
to the constitution that allows the extradition of
Hondurans, effective as of February 27, 2012. There is
no dispute by the parties as to the date limitation in
the interpretation of the Treaty. The Petitioner,
confident that he had not participated in any criminal
conspiracy taking place after February 27, 2012, did
not fight extradition, confiding in the language of the
Treaty and was held without bond until the time of his
trial.
The Petitioner filed a pretrial Motion to Limit the
Presentation of Evidence at Trial Pursuant to the
Extradition Treaty with Honduras. (DE 31). The
government filed a Response (DE 42) and the defense
filed a Reply. (DE 47). The District Court referred the
motion to the Magistrate for resolution and findings of
law. The Magistrate entered an Order, (DE 53) in
which the motion was:
“denied with respect to a limitation on the
evidence that the government may introduce to
prove the conspiracy offense for which the
defendant was extradited; and is granted to the
extent it requests the Court to limit the offense

4
charged to a conspiracy that began on February
27, 2012.”
The Petitioner proceeded to jury trial on January 8,
2018. The prosecution presented over ninety percent of
its evidence, (under the guise of FRE 404(b)), of acts
that occurred before February 27, 2012 and after a two
day trial, the Petitioner was found guilty of the one
count of conspiracy charge.
On May 21, 2018, after entertaining numerous
objections to the pre-sentence investigation report, the
District Court, denying all objections, sentenced the
Petitioner to life in prison under guideline level 43,
criminal history category I. The defendant filed a
timely Notice of Appeal on May 23, 2018 to the
Eleventh Circuit Court of Appeals.
The Petitioner appealed two issues pertaining to his
trial and two issues pertaining to his sentencing in his
appeal to the Eleventh Circuit. The two issues
pertaining to his trial and the violation of the
extradition Treaty with Honduras, are the two
questions Petitioner argues for review by this
Honorable Court in the present Petition for Writ of
Certiorari. On July 2, 2019, the Eleventh Circuit
issued an unpublished opinion affirming Defendant’s
conviction and sentence (App. A) Per Curiam.
The Petitioner Sergio Mejia-Duarte is currently
incarcerated and serving his life term of imprisonment.

5
B. Statement of the Facts
The Petitioner was born and lived all of his life in
the Republic of Honduras. During the two day trial, a
series of prosecution witnesses were presented, who
testified they were all former drug dealers (currently
incarcerated) and who had done drug deals with the
Petitioner before February of 2012. Only one witness,
Warner Benitez-Lopez (DE 73, pgs. 10-45) testified that
he had done a drug deal with the defendant’s brotherin-law, Jairo, in 2013 or 2014 and he assumed that the
Petitioner had approved it because the two, Petitioner
and his brother-in-law worked together. There was
also testimony presented that the Petitioner had been
“seen” with other known drug dealers after February
2012. There was however no, non-speculative real
evidence of the Petitioner having been involved in a
drug conspiracy after February 2012.
Three witnesses also testified to what they admitted
to were rumors, that a former rival of the Petitioner’s
partner was murdered in El Salvador, all suggesting
that the Petitioner was in some way involved. Again,
this was before February of 2012 and brought in under
the guise of FRE 404(b) evidence. The truth, later
verified by an official inquiry into the death of one Jose
Pena, was that he was shot in a gambling dispute, of
which the Petitioner had no participation or
knowledge. The prosecution’s intent to suggest that
the Petitioner was in some way involved, led the Judge
(and undoubtedly the jury) to believe and state at
sentencing:

6
“during trial, multiple witnesses testified that
the defendant was responsible for multiple acts
of violence perpetrated in Honduras including
the murder of Jose Pena.” (DE 92, pgs. 12-13)
At trial, the District Court erroneously allowed the
prosecution to present pre-February 2012 evidence
(including false evidence of his involvement in a
murder) under the guise of 404(b) evidence to convict
the Petitioner.
REASONS FOR GRANTING THE PETITION
I. THE COURT OF APPEALS CLEARLY ERRED
IN FINDING THAT THE DISTRICT COURT
PROPERLY ALLOWED THE PROSECUTION,
AT TRIAL, TO PRESENT EVIDENCE OF THE
PETITIONER’S ALLEGED CONSPIRATORIAL
ACTIVITIES BEFORE FEBRUARY 27, 2012 IN
VIOLATION OF THE EXTRADITION TREATY
BETWEEN THE UNITED STATES AND THE
REPUBLIC OF HONDURAS.
The amendments to the constitution of Honduras
that allows the extradition of Honduran nationals
under the Treaty between the United States of America
and the Republic of Honduras became effective on
February 27, 2012. The “Extradition Conditions”
stated in the Resolution of the Court of Extradition of
First Instance of Honduras, in its second paragraph
states:
“The requiring State can only impute Mr. Sergio
Neftali Mejia-Duarte, for events that have taken
place after the amendment to the constitution

7
that allows the extradition of Honduras,
effective as of February 27, 2012.”
The prosecution, the District Court, and the
Appellate Court agree with the literal translation of the
text above into English from the original Spanish, the
issue is what evidence against the defendant at trial
and what exceptions, if any, are allowed.
The operative word in the text of the Treaty is to
“impute”, the exact translation of the Spanish
“imputar” as stated in the Treaty.
Webster’s
unabridged Dictionary defines impute as “to consider,
to lay responsibility or blame for”. Webster’s New
College Dictionary defines “imputed” as used in legal
phrases: “this words means attributed vicariously”…
Perhaps the best definition applicable to the present
issue is found in the letter sent by the U.S. Department
of Justice, Washington, D.C. to the trial prosecutor in
the present case, it stated:
“Generally, the detention, trial or punishment of
Mejia- Duarte for any offenses beyond those for
which extradition was granted is strictly
forbidden by the Extradition Treaty between the
United States of America and the Republic of
Honduras”. (DE 31-1)
Under any of these definitions the introduction of
evidence by the prosecution at trial of events predating
February 2012 was in violation of the very specific
language of the Treaty. Under the guise of it being
admissible under FRE 404(b), the District Court
permitted the prosecution to convict the defendant of
the one count conspiracy charge and then sentenced

8
him to life imprisonment. If in accordance with the
Treaty, only alleged criminal acts occurring after
February 2012 had been introduced, the prosecution’s
case, as reflected by the trial record, would not have
survived a Rule 29 motion at the conclusion of the
prosecution’s case.
The District Court admitted all of the pre February
2012 evidence under FRE 404(b). However, there was
no relation between the witnesses and their testimony
of acts that exclusively occurred before February 2012
and the evidence presented of acts that occurred after
February 2012. The prosecution’s theory of the case
basically was: all of this evidence shows that the
defendant was involved in a criminal conspiracy before
February 2012, hence, as members of this jury you can
assume that he continued to participate after February
2012, even though we have no credible evidence that he
did. Clearly that is not the intent of FRE 404(b) and
really falls in line with the “Prohibited Uses” as clearly
stated in FRE 404(b)(1).
The Court of Appeals’ Opinion does not address the
improper admissibility of trial evidence before
February 2012 in violation of the terms of the Treaty,
but instead only focuses on FRE 403 in its decision,
(which is pertinent to the second question for review).
Petitioner’s Reply Brief argues this issue in
response to the government’s brief’s statement that the
“overwhelming evidence of Mejia-Duarte’s guilt should
not be disturbed” (Appellee’s Brief, pg. 12). The
Eleventh Circuit Opinion correctly concludes that the
ultimate question at trial was:

9
“the only real question is whether Mejia-Duarte
knowingly and voluntarily partook in that
conspiracy at some point after February 2012”
(Appendix A, pg. 8)
The Eleventh Circuit Opinion then goes on to state:
“The Government presented sufficient evidence of
Mejia-Duarte’s involvement. To be sure, it presented
no smoking gun.” Citing, United States v. Vernon, 723
F.3d 1254, 1273 (11th Cir. 2013) and United States v.
Toler, 144 F.3d 1423 (11th Cir. 1998), the Appellate
Court states: “multiple witnesses testified that MejiaDuarte and his partner were in fact co-conspirators.”
(Appendix A, pg. 8) As the trial record reflects all of
this testimony was relating to events before February
of 2012. The Appellate Opinion then states: “Two
witnesses described trafficking with Mejia-Duarte
through the partner.” (Appendix A, pg. 8). There was
only one witness, Warner Benitez-Lopez, who testified
that in 2014 he sent an individual to Honduras to talk
to another individual, who was the brother-in-law of
the petitioner. Based on the fact that it was the
brother-in-law of the petitioner, Warner believed he
was also working with Mejia-Duarte. (DE 73, pgs. 3031). The Appellate Court finds this speculative
testimony to be “sufficient” proof citing United States
v. Sosa, 777 F.3d 1279, 1290 (11th Cir. 2015) and
United States v. Miranda, 425 F.3d 953, 959 (11th Cir.
2005).
The Appellate Court states that this evidence meets
the knowledge element without questioning how the
witness was not able to state at trial that he knew that

10
the brother-in-law was indeed partnered with the
Petitioner in 2014.
The Opinion then states that: “two witnesses
described being present at meetings in which MejiaDuarte proposed a planned trafficking.” (Appendix A,
pg. 9)
The trial record shows that one witness, Warner
Benitez-Lopez testified that “he traveled to the
Dominican Republic, the Petitioner was there and
there was a meeting, but he (Warner) did not attend
the meeting”, again it was Warner’s partner, Jose
Perez who attended the meeting. (DE 73, pg. 31). The
second witness testified at trial that he had seen the
Petitioner at a hotel in Honduras talking with known
drug dealers. Neither witness was actually present at
the so-called meetings. Based on this testimony, the
Appellate Court finds that the voluntariness element is
satisfied citing United States v. Vernon, 733 F.3d 1234,
1273 (11th Cir. 2013) and United States v. Rivera, 775
F.2d 1559, 1561 (11th Cir. 1985). The Appellate Court
states that: “Mejia- Duarte offers us no reason to view
this testimony as unbelievable on its face.” The fact
that neither witness was actually present at the socalled meetings and therefore they couldn’t testify as to
what they actually heard at the meetings, makes their
testimony purely speculative at best and hence
unbelievable as to the ultimate issue.
The Appellate Court’s Opinion does not cite any
reliable evidence that supports its conclusion that
“Mejia-Duarte knowingly and voluntarily partook in
the conspiracy at some point after February 2012.”
(Appendix A, pg. 9)

11
Rule 404(b) by definition is a prosecutorial tool by
which otherwise inadmissible evidence is brought in to
support the prosecution’s weak case in the eyes of the
jury. The admission of the evidence of pre-February
2012 conduct in the present case makes the Treaty
worthless. Why have a provision limiting the evidence
that can be “imputed” to an extradited defendant if
under the “backdoor” of FRE 404(b) it is all going to
come in anyway? To realistically expect that a
“limiting instruction” by the District Court is going to
cure the prejudice created by almost all of the evidence
presented is not realistic. As the trial attorney stated
at sentencing:” this trial was all 404(b) evidence and
very little substantive stuff” (DE 92, pg. 6). The
Petitioner relied on the language of the Treaty when he
agreed to not fight extradition and proceed to a fair
trial. The process of the trial made the language of the
Treaty on which the Petitioner relied a toothless
document. The fact that the Petitioner was charged
with just one count of conspiracy made the issue of the
interpretation of the limitations under the Treaty even
more important.
The international doctrine of specialty is well
established in our legal system. In United States v.
Rauscher, 119 U.S. 407, 7 S.Ct. 234, 30 L.Ed 425
(1886), the Supreme Court established as a judicially
enforceable principle of our domestic law that an
extradited defendant may not be charged and tried in
crimes not enumerated in the applicable extradition
treaty. Valentine v. United States, ex rel. Neidecker,
299 U.S. 5, 57 S.Ct. 100, 81 L.Ed 5 (1936); Factor v.
Laubenheimer, 290 U.S. 276, 54 S.Ct. 191, 78 L. Ed
315 (1933). The doctrine was later carried further to

12
provide that even if the treaty specifies crimes for
which the defendant may be criminally responsible,
prosecution for such offenses will be barred if the
asylum state did not grant extradition for such crimes.
Johnson v. Browne, 205 U.S. 309, 27 S.Ct. 539, 51
L.Ed. 816 (1907). In modern times the more relevant
questions have been in deciding whether certain
offenses which the government seeks to prosecute fall
outside the contemplated scope of the foreign
sovereign’s extradition treaty. Shapiro v. Ferrandina,
478 F.2d 894 (2d Cir. 1973). The prosecution, correctly
argued that the doctrine of specialty does not allow a
foreign power to intrude in the evidentiary or
procedural rules of the requisitioning state. Under this
theory the prosecution at trial basically tried the
Petitioner almost exclusively on evidence improperly
admitted under FRE 403 and FRE 404(b). The one
count conspiracy charge, facilitated the open door to
any and all evidence, in order to prove the Petitioner
was in a conspiracy for which there was no reliable
evidence after February 2012, the date clearly stated
and acknowledge by the Courts and prosecutor as the
cutoff date for the crimes for which the defendant could
be charged, tried and punished.

13
II. THE APPELLATE COURT’S OPINION THAT
THE DISTRICT COURT PROPERLY
ALLOWED TESTIMONY ABOUT A MURDER
THAT WAS COMPLETELY UNRELATED TO
THE PETITIONER WAS ERROR.
During the trial, the prosecution presented
testimony from three witnesses about a “drug war” and
the subsequent killing of a former drug gang leader,
Jose Pena, who was killed in El Salvador, after he had
left Honduras to reside in El Salvador. The testimony
of three government witnesses was presented to
suggest that the defendant was somehow involved in
the murder of the former Honduran drug dealer. The
truth, as verified by police records of the killing in El
Salvador, was that Mr. Pena had been killed by a
Salvadorian individual pursuant to a dispute over a
gambling debt. The testimony was pure hearsay and
trial counsel objected to its introduction. The District
Court permitted the evidence both over a hearsay
objection as well as a FRE 403 objection. The net
result was that the jury was tainted by what could only
be considered prejudicial, “false” testimony of any
involvement by the Petitioner in the killing of Jose
Pena.
The Appellate Court’s Opinion considered Mejia’s
argument against the introduction of the murder
evidence as “making a mountain out of a molehill as it
related to the risk of unfair prejudice.” (Appendix A,
pg. 4) The Appellate Court conducted a Rule 403
analysis and found that the prosecution properly used
this testimony to show that the witnesses must have
testified truthfully because each witness’s testimony

14
was corroborated by the other witness’ testimony. The
trial record however shows that the testimony, as to
what happened to Jose Pena, was not corroborated by
the three witnesses. Quite the contrary it was quite
inconsistent, showing that it was either unreliable
hearsay or totally made up by each of the three
separate witnesses.
In discussing the prejudice prong, the Appellate
Opinion concludes that there was no prejudice because
of “nothing about the evidence connects Mejia-Duarte
to the death” (‘Appendix A, pg. 7) so the final
conclusion of the Appellate Court is:
“The evidence was relevant to a necessary part
of the Government’s case: witness credibility.
And the risk of unfair prejudice was almost
nonexistent.”
The inconsistency in the testimony as to Jose Pena’s
killing from the three witnesses could not have added
to the government’s theory, the three witnesses did not
corroborate each other’s testimony. The suggestion
that the evidence of the killing was not prejudicial to
the Petitioner in tainting the jury and providing him
with a fair trial is equally implausible. The best
evidence of the prejudice that this false, hearsay and
prejudicial evidence had on the jury, can best be seen
in the statement of the District Court trial judge at the
sentencing hearing when the Court stated:
“During trial, multiple witnesses testified that
the defendant was responsible for multiple acts
of violence, perpetrated in Honduras including
the murder of Jose Pena.: (DE 92, pgs. 12-13)

15
If an experienced District Court Judge found that
the witnesses testified that “Mejia was responsible for
violence including the murder of Jose Pena”, how could
this evidence have not been prejudicial enough to taint
the jury and deny the Petitioner a fair trial?
Federal Rule of Evidence 403 demands a balancing
approach between degrees of probative value and its
prejudicial effect. Old Chief v. United States, 519 U.S.
172, 117 S.Ct. 644, 136 L.Ed. 2d 574 (1997). The
prejudice is clearly reflected in the Court’s reliance on
the evidence in its sentencing hearing statement.
Additionally, trial counsel objected to the evidence as
hearsay and the prosecution offered no applicable
exception to the hearsay rule, yet the Court still
admitted it. The case law in the Eleventh Circuit has
shown that when the prejudice is present and the
probative value is either minimal or as in the present
case, nonexistent, the conviction must be reversed,
vacated and a new trial ordered. United States v.
Hands, 184 F.3d 1322 (11th Cir. 1999); United States
v. Marshall, 173 F.3d 1312 (11th Cir. 1999).
The prosecution had a duty to verify that the
testimony of its three witnesses was not made up or at
best rank, unreliable hearsay. All it had to do, with its
abundant resources, was review the police inquiry
report into the death of Jose Pena in El Salvador. It
did not and allowed the witnesses to present their
prejudicial testimony without any basis of truth. The
District Court, after objection, from trial defense
counsel should have not admitted the clearly hearsay
testimony. The Appellate Courts’ statement that

16
Petitioner’s argument “makes a mountain out of a
molehill” is contra the record of the trial.
Clearly, by the prosecution presenting the three
witnesses’ testimony as to the killing of an individual
and the District Court allowing its admission, the
Petitioner was prejudiced in the eyes of the jury and he
was denied his constitutional right to a fair trial before
an untainted jury.
CONCLUSION
A series of intertwined errors during the
Petitioner’s trial resulted in the Petitioner’s conviction
on the one count of conspiracy and a life in prison
sentence.
The Eleventh Circuit’s Opinion did not correctly
analyze the intertwined issues of interpreting the
language of the Extradition Treaty with Honduras visà-vis the applicable Federal Rules of Evidence resulting
in its affirming the Petitioner’s conviction and
sentence.
WHEREFORE, SERGIO MEJIA-DUARTE, prays
that this Court issue its Writ of Certiorari to the
United States Court of Appeals for the Eleventh
Circuit.

17
Respectfully submitted this 20th day of September,
2019.
Mauricio L. Aldazabal
Counsel of Record
2655 S. LeJeune Road
Suite 700
Coral Gables, FL 33134
(305) 569-9655
mlafedesq@msn.com
Counsel for Petitioner

